NOT FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No.

ARTHUR LOPEZ,
Plaintiff-Appellant,

FILED
FEB 6 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-56452

D.C.No. 8:17-cv-00488-VBFMRW

v.
NEWPORT BEACH POLICE
DEPARTMENT; efal.,

MEMORANDUM*

Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Valerie Baker Fairbank, District Judge, Presiding
Submitted February 4, 2020**
Before:

FERNANDEZ, SILVERMAN, and TALLMAN, Circuit Judges.

Arthur Lopez appeals pro se from the district court’s summary judgment and
dismissal order in his 42 U.S.C. § 1983 action alleging malicious prosecution and
false arrest. We have jurisdiction under 28 U.S.C. § 1291. We review de novo.
Smith v. Almada, 640 F.3d 931, 936 (9th Cir. 2011) (summary judgment); Barren

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

V. Harrington, 152 F.3d 1193,1194 (9th Cir. 1998) (order) (dismissal under
§ 1915(e)(2)(B)). We affirm.
The district court properly granted summary judgment on Lopez’s malicious
prosecution and false arrest claims against defendant Vincelet because Lopez
failed to raise a genuine dispute of material fact as to whether Vincelet acted with
malice, and Lopez failed to overcome the presumption, created by the prosecutor
filing a criminal complaint, that Vincelet acted with probable cause

, See Mills v.

City of Covina, 921 F.3d 1161,1169 (9th Cir. 2019) (describing the elements of a
malicious prosecution claim); Smiddy v. Varney, 665 F.2d 261,266 (9th Cir.
1981), overruled on other grounds by Beck v. City of Upland , 527 F.3d 853, 865
(9th Cir. 2008) (The filing of a criminal complaint establishes probable cause and
“immunizes investigating officers [] from damages suffered thereafter because it is
presumed that the prosecutor filing the complaint exercised independent judgment
in determining that probable cause for an accused’s arrest exists at that time.”); see
also Dubner v. City and County, ofSan Francisco, 266 F.3d 959, 964 (9th Cir.
2001).
The district court properly dismissed Lopez’s Fourteenth Amendment equal
protection claim against Vincelet because Lopez failed to allege facts
demonstrating that Vincelet acted with a discriminatory purpose. See Lacey v.
Maricopa County.

, 693 F.3d 896,920 (9th Cir. 2012) (an equal protection claim

2-ft

18-56452

. .•
v i (t

under the Fourteenth Amendment requires that the defendant was motivated by a
discriminatory purpose).
The district court properly dismissed Lopez’s malicious prosecution claim
against defendant Miller because Lopez failed to allege facts sufficient to show
that Miller acted with malice. See Mills, 921 F.3d at 1169.
The district court properly dismissed Lopez’s claims against the Newport
Beach Police Department and the City of Newport Beach because Lopez failed to
allege facts plausibly demonstrating an unconstitutional policy, practice, or act by
an official with policy-making authority. See Price v. Sery, 513 F.3d 962, 966 (9th
Cir. 2008) (setting forth elements of a municipal liability claim under § 1983).
The district court did not abuse its discretion in denying Lopez leave to
amend his complaint to add claims under 42 U.S.C. § 1985 because the
amendment was futile and allowing its addition would have caused prejudice to
defendant Vincelet. See Bowles v. Reade, 198 F.3d 752, 757-58 (9th Cir. 1999)
(setting forth standard of review and factors for denial of a motion to amend).
The district court did not abuse its discretion in denying Lopez leave to add
claims against Police Chief Jay Johnson because Lopez’s proposed amended
complaint was not accompanied by a motion. See E.D. Cal. Civ. R. 15-1.

18-56452

ir

Lopez’s motion to take notice of California Penal Code § 166 and another
one of his cases in this Court, 18-55520, is granted. All other pending motions are
denied.
AFFIRMED.

t

18-56452

X

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

FEB 28 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ARTHUR LOPEZ,
Plaintiff - Appellant,
v.
NEWPORT BEACH POLICE
DEPARTMENT; et al.,

No. 18-56452
D.C.No. 8:17-cv-00488-VBF-MRW
U.S. District Court for Central
California, Santa Ana
MANDATE

Defendants - Appellees.

The judgment of this Court, entered February 06, 2020, takes effect this
date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Rebecca Lopez
Deputy Clerk
Ninth Circuit Rule 27-7

f

<!

Case 8:17-cv-00488-VBF-MRW Document 81 Filed 10/25/18 Page 2 of 2 Page ID #:1003
pase 8:17-cv-00488-VBF-MRW Document 80 Filed 10/18/18 Page 1 of 1 Page ID #.1001

1
2
3
4

5
6
7

8

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

9
10
11
12
13

Plaintiff,

14

15
16
17
18
19

Case No. SA CV 17-488VBF-MRW

ARTHUR LOPEZ,

FINAL JUDGMENT

v.

NEWPORT BEACH POLICE DEPARTMENT,
CITY OF NEWPORT BEACH,
CONNOR MILLER, JOSH VINCELET
(Newport Beach Police Department, in his
individual capacity), and Does 1-100,
Defendants.

20

21
22

Final judgment is hereby entered in favor of all defendants and against
plaintiff Arthur Lopez. IT IS SO ADJUDGED.

23
24
25

26
27

Date: October 18, 2018
Hon. VALERIE BAKER FAIRBANK
Senior United States District Judge

28

* r

Page 2

C ase 8:17-cv-00488-VBF-MRW Document79 Filed 10/18/18 Page lot2 PagelD#:993

1
2
3
4
5

6
7

UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

9

WESTERN DIVISION

10
11
12
13
14
15
16

]

ARTHUR LOPEZ,
Plaintiff,
v.
JOSH VINCELET (Newp ort Beach
Police Department, m indiividual capacity),
Defendant.

Case No. SA CV 17-00488-VBF-MRW
ORDER
Overruling Plaintiffs Obi ections and
Adopting the July 27, 2018 R & R:
Granting Document #55 (Vincelet MSJ)
Denying Document #68 as Moot
Dismissing the Action With Prejudice;
Directing Entry of Separate Judgment;)
Terminating and Closing the Case (JS-6)

17
18

This Court reviewed the Complaint, CM/ECF Document (“Doc”) 1; First Amended

19

Complaint (“FAC”) (Doc 13); May 1, 2017 Report and Recommendation (“2017 R&R”)

20

(Doc 16) and this Court’s May 24, 2017 Order Adopting the 2017 R&R (Dismissing All

21

Claims in the FAC and Returning the Case to the Magistrate for Proceedings on Original

22

Complaint’s Surviving Claims Against Vincelet). The Court also reviewed defendant

23

Vincelet’s Answer (Doc 28); Vincelet’s motion for summary judgment (Docs 55-56),

24

plaintiffs opposition (Doc 60), and Vincelet’s reply (Doc 67); the Magistrate’s July27,2018

25

R&R (“the 2018 R&R”) (Doc 72) and plaintiffs objections (Doc 73); and the applicable law.

26

As required by 28 U.S.C. § 636 and Fed. R. Civ. P. 72(b), the Court has engaged in

27

de novo review of the portions of the 2018 R&R to which plaintiff has objected and finds no

28

defect of law, fact, or logic in the 2018 R&R. The Federal Magistrates Act and Fed. R. Civ.

C ise 8:17-cv-00488-VBF-MRW Document 79 Filed 10/18/18 Page 2 of 2 PagelD#:1000

1

P. 72 do not require a district judge to discuss a party’s objections to an R&R, seeMacKenzie

2

v. Calif. AG, 2016 WL 5339566, *1 (C.D. Cal. Sept. 21,2016), “particularly... where, as

3

here, the objections are plainly unavailing”, Smith v. Calif. Jud. Council, 2016 WL 6069179,

4

*2 (C.D. Cal. Oct. 17, 2016). Accordingly, the Court will accept the Magistrate Judge’s

5

factual findings and legal conclusions and implement his recommendation.

6
ORDER

7
8

Plaintiff Lopez’s objection [Doc # 75] is OVERRULED.

9

The Report and Recommendation [Doc # 72] is ADOPTED.

10

Defendant Vincelet’s motion for summary judgment [Doc # 55] is GRANTED.

11

Plaintiff Lopez’s motion for summary judgment [Doc # 68] is DENIED as moot.

12

Summary judgment is granted to defendant Vincelet on all claims against him.

13
14
15

Final judgment consistent with this order will be entered separately as required by
Fed. R. Civ. P. 58(a). See Jayne v. Sherman, 706 F.3d 994, 1009 (9th Cir. 2013).

16

This action is DISMISSED with prejudice.

17

The case SHALL BE TERMINATED and closed (JS-6).

18

IT IS SO ORDERED.

19
20

Dated: October 18, 2018

21

Hon. Valerie Baker Fairbank

22

Senior United States District Judge

23
24
25

26
27
28

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 1 of 13 PagelD#:935

1
2
3
4

5
6
7
8

9
10

IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA

11
12
13

ARTHUR LOPEZ,
Plaintiff,

14
15
16
17
18

Case No. SA CV 17-488 VBF (MRW)
REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE
JUDGE

v.
NEWPORT BEACH POLICE
DEPARTMENT, et al.,
Defendants.

19
20

21
22
23
24
25

26
27

28

This Report and Recommendation is submitted to the Honorable
Valerie Baker Fairbank, Senior United States District Judge, pursuant to
28 U.S.C. § 636 and General Order 05-07 of the United States District Court for
the Central District of California.
SUMMARY OF RECOMMENDATION
This is a pro se civil rights action. Plaintiff sued a local detective who
investigated a claim that Plaintiff violated a restraining order. Plaintiff
contends that the criminal charge that resulted from the detective’s

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 2 of 13 PagelD#:936

1

investigation - which was later dismissed - constituted an unconstitutional

2

malicious prosecution and false arrest.

3

The Court concludes that the detective is entitled to summary judgment

4

on these causes of action. The undisputed facts could not lead any rational jury

5

to conclude that the detective’s actions rose to the level of constitutional

6

violations under settled Ninth Circuit law.

7

The Court therefore recommends that judgment be entered against

8

Plaintiff and the action dismissed.

9

FACTS AND PROCEDURAL HISTORY

10

Plaintiffs Wife Complains to the Police

11

Plaintiffs former wife obtained a restraining order against him in early

12

2016. The order required Plaintiff to stay more than 100 yards away from her

13

and their children.1 (Docket # 55-2 at 31.)

14

In July 2016, the ex-wife attended a work event at a beach park in

15

Newport Beach. As she and a colleague left the event, she saw Plaintiff in his

16

vehicle. Plaintiffs vehicle pulled in front of the women several minutes later

17

when they began to drive off. Plaintiff then drove “super slow” in front of the

18

women on the Pacific Coast Highway, which the ex-wife took to be suspicious.

19

(Id, at 11.)

20

The ex-wife went to the Newport Beach Police Department the next day

21

to report Plaintiffs apparent violation of the restraining order. She recited

22

these facts in a written complaint that she submitted to the police.

23
24

25
26
27

28

i

Plaintiff denies that this is a “restraining” order, but acknowledges
that he was the subject of a “protective” order. (Docket # 62-1 at 5.)
2

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 3 of 13 PagelD#:937

1

Detective Vincelet Interviews Plaintiff and Forwards a Report to

2

County Prosecutors

3

Defendant Vincelet is a detective with the Newport Beach Police

4

Department. He was assigned to investigate the incident. (Id. at 15.)

5

The detective conducted a recorded telephone interview of Plaintiff

6

several days after Plaintiffs ex-wife submitted her complaint.2 In that

7

discussion, Plaintiff acknowledged that he lived in Riverside County.

8

However, Plaintiff stated that he visited Newport Beach several times per week

9

for physical therapy or to exercise at the beach. Plaintiff did not admit that he

10

saw or interacted with his ex-wife on the day in question. If they were near

11

each other on the road, Plaintiff stated that this was a “coincidence.” (Id. at 26.)

12

Detective Vincelet wrote a summary of his interview with Plaintiff. The

13

report also contained information regarding Plaintiffs criminal history. The

14

detective determined that Plaintiff “had several contacts and arrests for

15

domestic related issues” and was “currently on informal probation for spousal

16

battery.” (Id.) Defendant Vincelet then submitted the report of the interview

17

with Plaintiff and the ex-wife’s complaint to the county’s district attorney.3 (Id.

18

at 17.)

19
20

21
22
23
24
25

26
27
28

2

The recording is manually lodged with the Court on a “thumb
drive” at Docket #56. The Court listened to the entirety of the interview
(approximately 10 minutes). The device also contains a longer recording of a
Superior Court proceeding at which Plaintiff was detained by court order
related to this matter. The defense failed to provide the Court with a transcript
(or any meaningful summary) of either audiorecording.
3
There is no evidence in the record that Detective Vincelet
interviewed the ex-wife’s work colleague (Ms. Tsimbalev (the driver of the
vehicle)), although she was identified on a police report under the category
“Others Involved” in the incident. (Docket # 62 at 9.)
Plaintiff offers a statement purporting to be from Ms. Tsimbalev
regarding the incident as part of his evidentiary submission. (Docket # 62
at 15.) The document is unsigned, undated, unsworn, and unauthenticated in
any way. The defense’s objections to this document are sustained under
3

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 4 of 13 PagelD#:938

1

The district attorney’s office filed a criminal complaint against Plaintiff

2

in September 2016. The complaint alleged a criminal violation of the existing

3

protective order (Cal. Penal C. § 166(c)(1) (willful and knowing violation of

4

“stay away order” after conviction involving domestic violence)). (Docket # 62

5

at 20.) Detective Vincelet did not communicate with the prosecutor or the

6

judge involved in that criminal case after submitting his report. He also did not

7

arrest Plaintiff when Plaintiff appeared in court on the charge later in

8

September. (Docket # 55-2 at 17.) (The Court is anecdotally aware that

9

Plaintiff spent several weeks in custody on the protective order violation

10

charge. The case was dismissed before trial and Plaintiff was released.)

11

The Summary Judgment Submissions

12

The Court screened Plaintiffs pro se civil rights complaint pursuant to

13

28 U.S.C. § 1915(e)(2). The Court permitted Plaintiff to serve his complaint

14
15
16
17
18
19
20

21
22
23
24

25
26
27
28

Federal Rule of Civil Procedure 56(c)(2), 56(e), and Federal Rule of Evidence
901.
At the hearing on the summary judgment motion, Plaintiff asked
the Court to consider this material and show him leniency based on Haines v.
Kerner, 404 U.S. 519 (1972). That decision stands for the noncontroversial
proposition that a pro se complaint should be held to “less stringent standards
than formal pleadings drafted by lawyers.” See also Lopez v. Smith, 203 F.3d
1122 (9th Cir. 2000) (same). However, a pro se litigant “is expected to abide
by the rules of the court in which he litigates.” Carter v. CIR. 784 F.2d 1006,
1008 (9th Cir. 1986); United States v. Merrill, 746 F.2d 458, 465 (9th Cir.
1984) (pro se litigant “is subject to the same rules of procedure and evidence as
defendants who are represented by counsel”). Plaintiff has not come close to
satisfying the basic procedural / evidentiary rules of establishing that the Court
may consider this statement.
And even if it did, the Tsimbalev statement hardly supports Plaintiffs
claims against Detective Vincelet. Ms. Tsimbalev firmly corroborated the
crucial portions of the ex-wife’s statement that led to the presentation of
criminal charges against Plaintiff: he “drove very slowlyf,] going unnaturally
slow[,] kept braking, as if he knew we were behind him, waiting for us to pass.
It felt uncomfortable.” (Docket # 62 at 15.) Whatever minor quibbles Plaintiff
has with other aspects of the statement, this information obviously supports a
finding of probable cause based on Plaintiffs suspicious conduct (discussed
below).
4

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 5 of 13 PagelD#:939

1

and pursue his confusingly-pled “Fourth Amendment claims of malicious

2

prosecution / false arrest / false imprisonment” against Detective Vincelet.

3

(Docket # 4 at 1 (screening order).) The remainder of the complaint and other

4

proposed amended complaints were dismissed with prejudice. The district

5

judge affirmed those rulings. (Docket # 19, 51.)

6

After the close of discovery, the defense moved for summary judgment.

7

(Docket #55.) The gist of the defense motion is that Defendant Vincelet

8

cannot be held liable for Plaintiffs arrest and prosecution given the

9

independent decision of the district attorney’s office to pursue criminal charges.

10

The defense also contends that Vincelet is entitled to qualified immunity for his

11

conduct. The key materials in support of the summary judgment motion (as

12

cited above) are the initial complaint from the victim, the audio and written

13

records of Vincelet’s interview of Plaintiff, the documentary and declaratory

14

proof that Vincelet transmitted these items to the prosecutor, and the

15

uncontested declaration that Vincelet had no further involvement with

16

Plaintiffs case after the initial investigation.

17

In response to the motion, Plaintiff filed several submissions. (Docket

18

# 59-64.) These items are a combination of “legal” arguments, first person

19

narratives, and a hodge-podge of unauthenticated documents. However,

20

Plaintiff offered no non-hearsay proof of these facts from any competent

21

witness.4

22
23
24

25
26
27
28

As best as the Court understands Plaintiffs written materials and his
argument at the hearing on the motion, he contends that the Vincelet
4

As with Plaintiffs submissions in his earlier action involving
another local police agency (SA CV 17-297 VBF (MRW)), the Court
disregards Plaintiffs statement of controverted facts. (Docket # 61.) That
submission consists of Plaintiff s handwritten “disputes” scrawled on the
defense’s statement of uncontroverted facts. Plaintiffs submission neither
constitutes nor points the Court to relevant, admissible evidence.
FRCP 56(c)(l, 4).
5

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 6 of 13 Page ID #:940

1

submission to the prosecution did not properly establish probable cause for his

2

arrest. Plaintiff also claims that Vincelet “lied” by failing to credit Plaintiffs

3

denials of misconduct, misstated the extent of Plaintiff s criminal history, or

4

failed to explore alleged inconsistencies with the ex-wife’s allegations. (Docket

5

# 59 at 2-7; 60 5-8.) He also broadly complains that there was an insufficient

6

basis to conclude that he “willfully” violated the restraining order. (Docket #59

7

at 7.)

8

RELEVANT FEDERAL LAW AND ANALYSIS

9
10

Standard of Review
Under Federal Rule of Civil Procedure 56(c), summary judgment is

11

appropriate when there is no genuine issue as to any material fact and the

12

moving party is entitled to judgment as a matter of law. A “genuine issue”

13

exists only if there is a sufficient evidentiary basis upon which a reasonable jury

14

could return a verdict for the non-moving party. Anderson v. Liberty Lobby,

15

Inc.. 477 U.S. 242, 249 (1986).

16

The party seeking summary judgment must present admissible evidence

17

that establishes that there is no genuine, material factual dispute and that he is

18

entitled to judgment as a matter of law. Celotex Corp. v. Catrett, 477 U.S. 317,

19

323 (1986). The Court views the inferences drawn from the underlying facts in

20

a light most favorable to the non-moving party. Matsushita Elec. Indus. Co.,

21

Ltd, v. Zenith Radio Corp., 475 U.S. 574, 587 (1986). “Where the record taken

22

as a whole could not lead a rational trier of fact to find for the nonmoving

23

party,” there is no genuine issue for trial. Ricci v. DeStefano, 557 U.S. 557,

24

586 (2009) (quoting Matsushita); Zetwick v, Yolo County, 850 F.3d 436, 441

25

(9th Cir. 2017) (to defeat summary judgment, non-moving party must present

26

evidence “such that a reasonable juror drawing all inferences in favor of the

27

respondent could return a verdict in the respondent’s favor”).

28

6

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 7 of 13 PagelD#:941

1

The nonmoving party must present more than “a mere ‘scintilla’ of

2

evidence[;] rather, the nonmoving party must introduce some significant

3

probative evidence tending to support the complaint.” Summers v. Teichert &

4

Son. Inc.. 127 F.3d 1150, 1152 (9th Cir. 1997) (quotation omitted, emphasis

5

added); Blankenbaker v. Progressive Cas. Ins. Co., 620 F. App’x 579, 582 n.4

6

(9th Cir. 2015) (“party opposing summary judgment must come forward with

7

significant probative evidence as to each element of the claim on which it bears

8

the burden of proof’). The nonmoving party may not rest on its own conclusory

9

allegations or mere assertions; it must set forth non-speculative evidence of

10

specific facts. Emeldi v. University of Oregon, 673 F.3d 1218, 1233 (9th Cir.

11

2012).

12

A court need not find a genuine issue of fact where the non-moving

13

party’s “self-serving” presentation puts forward “nothing more than a few bald,

14

uncorroborated, and conclusory assertions rather than evidence.” FTC v.

15

Neovi. Inc., 604 F.3d 1150, 1159 (9th Cir. 2010). Specifically, a court may

16

“disregard a self-serving declaration for purposes of summary judgment” when

17

the declaration states “facts beyond the declarant’s personal knowledge and

18

“provide[s] no indication how [the declarant] knows [these facts] to be true.”

19

SEC v. Phan, 500 F.3d 895, 910 (9th Cir. 2007) (quotations omitted); see also

20

Hexcel Corn, v. Ineos Polymers, Inc., 681 F.3d 1055, 1063 (9th Cir. 2012)

21

(declarations “must be made with personal knowledge; declarations not based

22

on personal knowledge are inadmissible and cannot raise a genuine issue of

23

material fact”).

24

Malicious Prosecution and False Arrest

25

To maintain a civil rights action for malicious prosecution, “a plaintiff

26

must show that the defendants prosecuted her [a] with malice and [b] without

27

probable cause, and that [c] they did so for the purpose of denying her [a]

28
7

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 8 of 13 PagelD#:942

1

specific constitutional right.” Smith v. Almada, 640 F.3d 931, 938 (9th Cir.

2

2011) (quotation omitted); Bartlett v. Nieves, 712 F. App’x 613 (9th Cir. 2017)

3

(same). A claim for false arrest or imprisonment5 “is cognizable under § 1983

4

[ ] provided the arrest was without probable cause or other justification.”

5

Dubner v. City and County of San Francisco, 266 F.3d 959, 964 (9th Cir.

6

2001).

7

A finding of probable cause “is an absolute defense to malicious

8

prosecution” and false arrest claims. Lassiter v. City of Bremerton, 556 F.3d

9

1049, 1054-55 (9th Cir. 2009); Fortson v. Los Angeles City Attorney’s Office.

10

852 F.3d 1190, 1194 (9th Cir. 2017) (same). The filing of a criminal complaint

11

- which establishes probable cause - “immunizes investigating officers [ ] from

12

damages suffered thereafter because it is presumed that the prosecutor filing the

13

complaint exercised independent judgment in determining that probable cause

14

for an accused’s arrest exists at that time.” Smiddy v. Varney, 665 F.2d 261,

15

266 (9th Cir. 1981).

16

The Smiddy presumption may be overcome by “evidence of material

17

omissions or inconsistent police or eyewitness accounts.” Newman v. County

18

of Orange. 457 F.3d 991, 995 (9th Cir. 2006); Awabdv v. City of Adelanto. 368

19

F.3d 1062, 1067 (9th Cir. 2004) (same). “If a plaintiff establishes that officers

20

either presented false evidence to or withheld crucial information from the

21

prosecutor,” the “presumption of prosecutorial independence” is defeated.

22

Caldwell v. City and County of San Francisco, 889 F.3d 1105, 1116 (9th Cir.

23

2018). The presumption may also be overcome by proof that an officer

24

“pressured the prosecutor or caused the prosecutor to act contrary to the

25

prosecutor’s independent judgment.” Crain v. Nevada, 724 F. App’x 591, 592

26
5

27

28

There does not appear to be any meaningful difference between the
tort iterations of false arrest and false imprisonment. Cabrera v. City of
Huntington Park. 159 F.3d 374, 380 (9th Cir. 1998).
8

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 9 of 13 PagelD#:943

1

(9th Cir. 2018) (citing Blankenhorn v. City of Orange, 485 F.3d 463, 482 (9th

2

Cir. 2007)).

3

However, an arrestee’s “account of an incident, by itself, is unlikely to

4

influence a prosecutor’s decision” and overcome the presumption. Newman,

5

457 F.3d at 995; Collins v. City of Colton,

6

3203424 at * 1 (9th Cir. June 29, 2018) (same). Also, a plaintiff must present

7

“more than conclusory allegations of the falsehood” of information provided to

8

prosecutors to demonstrate malice or the absence of probable cause. Caldwell,

9

889F.3dat 1116.

10

Discussion

11

Defendant Vincelet is entitled to summary judgment on Plaintiffs claims

F. App’x

, 2018 WL

12

that the detective violated his constitutional rights. The only admissible

13

evidence before the Court fails to demonstrate that Defendant acted with

14

malice, without probable cause, or in any way to rebut the conclusion that the

15

arrest decision was independently made by officials other than the detective.

16

No jury could plausibly return a verdict for Plaintiff on this evidence.

17

Anderson, 477 U.S. at 249; Zetwick, 850 F.3d at 441.

18

As an initial matter, there is no factual dispute regarding the extent of

19

Detective Vincelet’s actions here. He: (1) reviewed the written complaint of

20

Plaintiffs ex-wife describing his suspicious behavior; (2) interviewed Plaintiff

21

regarding the incident; and (3) conveyed this information to the prosecutor for

22

evaluation and a charging decision. A jury’s consideration of Defendant’s

23

conduct would necessarily be limited to these acts, not Plaintiffs unfocused

24

allegations regarding his own conduct on the day of the encounter or events that

25

occurred when Plaintiff later appeared in court. (Docket # 59.)

26
27

From this, there is no evidence that Defendant acted with any apparent
malice toward Plaintiff. Plaintiff has no proof that the detective coerced the ex-

28
9

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 10 of 13 Page ID #:944

1

wife to falsely report Plaintiffs conduct. Additionally, based on the Court’s

2

independent review of the police recording of the Lopez-Vincelet interview, the

3

detective and Plaintiff had a polite, professional discussion about the incident.

4

Plaintiff failed to offer any non-speculative proof that Vincelet acted with

5

malice toward him, which is a key element of the constitutional claim. Smith.

6

640 F.3d at 938; Bartlett. 712 F. App’x at 613.

7

Moreover, Plaintiff presents no evidence sufficient to rebut the

8

presumption that the prosecutor “exercised independent judgment” in finding

9

probable cause to pursue a criminal charge against Plaintiff. Smiddv. 665 F.3d

10

at 266. Plaintiff admits that, at the time of the incident, he was the subject of an

11

order that required him to stay 100 yards away from his ex-wife. The ex-wife

12

gave a statement to the police describing Plaintiffs undeniably suspicious

13

behavior when driving in close proximity to her. When the detective contacted

14

Plaintiff to get his version of events, Plaintiff was not able to provide Vincelet

15

with any evidence to disprove that he was in the vicinity. Indeed, Plaintiff

16

admitted that he likely was at the beach that day, but offered a non-inculpatory

17

interpretation of his conduct. Even when viewed in the light most favorable to

18

Plaintiff, the prosecutor was entitled to find probable cause that Plaintiff

19

willfully violated the protective order by “reverse tailgating” (deliberately

20

driving slowly in front of) his ex-wife. That probable cause finding “is an

21

absolute defense” to Plaintiffs constitutional claims against Detective Vincelet.

22

Lassiter. 556 F.3d at 1054-55; Fortson. 852 F.3d at 1194.

23

And, for purposes of Plaintiff s claims against the investigating officer,

24

there is no non-speculative evidence that Vincelet falsified any important

25

information in his limited communication with the prosecutor. Caldwell. 889

26

F.3d at 1116. There were no “inconsistent police or eyewitness accounts” that

27
28

10

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 11 of 13 PagelD#:945

1

Vincelet possessed or withheld from the prosecutor’s consideration.6 Newman,

2

457 F.3d at 995; Awabdy, 368 F.3d at 1067. With this evidence in hand, there

3

is no proof that the detective “pressured” the prosecutor or had any additional

4

contact that caused the prosecutor to bring charges here. Crain, 724 F. App’x at

5

592. The only version of events that contradicted the ex-wife’s complaint was

6

Plaintiffs own exculpatory denial of misconduct. But that denial was “unlikely

7

to influence a prosecutor’s decision” and cannot overcome the Smiddv

8

presumption as a matter of settled Ninth Circuit law. Newman, 457 F.3d at

9

995; Collins, 2018 WL 3203424 at * 1.

10

Plaintiff failed to carry his evidentiary burden of presenting “more than

11

conclusory allegations” about Detective Vincelet’s conduct.7 Caldwell, 889

12

F.3d at 1116. Based on the limited evidence that Plaintiff presented, the Court

13

must presume that the local prosecutor independently found probable cause to

14

pursue a criminal charge against Plaintiff. There is also no evidence to create a

15

triable issue of fact regarding Detective Vincelet’s alleged malice toward

16
17
18
19
20

21
22
23
24

25
26
27

28

6

Indeed, even though there is no proof that Vincelet learned of the
alleged statement of the ex-wife’s friend (Tsimbalev), that information is
entirely consistent with the complainant’s recitation of the events.
And if Plaintiff contends that the officer somehow violated the
Constitution by not interviewing the corroborating witness, neither he nor the
defense has directed the Court to any clear legal authority on this topic. That,
by itself, could properly support a finding of qualified immunity in favor of
Detective Vincelet. Such immunity “shields government officials from civil
damages liability unless the official violated a statutory or constitutional right
that was clearly established at the time of the challenged conduct.” Reichle v.
Howards, 566 U.S. 658, 664 (2012). “To be clearly established, a right must be
sufficiently clear that every reasonable official would have understood that
what he is doing violates that right.” Id. Plaintiff does not come close to
meeting this daunting standard to demonstrate that Vincelet was
constitutionally required to interview a secondary witness.
7
Plaintiffs claims that Vincelet “lied” to the prosecutor boil down
to the lack of acceptance of Plaintiff s denial of guilt and minor critiques of the
detective’s summary of Plaintiff s criminal record. (Docket #61 at 3-6; 62
at 13.) These unsupported contentions do not create a dispute over any material
fact in this Court’s summary judgment review. Neovi, 604 F.3d at 1159.
11

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 12 of 13 Page ID #:946

1

Plaintiff; there is none. Finally, given the prosecutor’s independent probable

2

cause determination and Vincelet’s undisputed non-involvement in the matter

3

after the initial presentment, there is no basis for the malicious prosecution or

4

false arrest charges to proceed to federal trial. No reasonable jury could fairly

5

conclude that Vincelet’s actions violated Plaintiffs Fourth Amendment rights.
* * *

6
7

Throughout Plaintiffs written materials and oral presentation in court, he

8

emphasizes his factual innocence to the charge that he violated the protective

9

order. Fie also relies heavily on the dismissal of those charges before trial as

10
11

“proof’ that he was wrongfully arrested.
But the legal claims he seeks to pursue in this civil action require

12

considerably more than that. Plaintiff has not backed up his claims of

13

constitutional misconduct by the investigator who merely forwarded the

14

evidence regarding Plaintiffs conduct to the prosecutor for evaluation.

15

Plaintiff utterly failed to present “significant probative evidence” that Detective

16

Vincelet materially misled the prosecutor in making that probable cause

17

determination. Summers, 127 F.3d at 1152. Summary judgment in favor of the

18

defense is appropriate because there is no genuine dispute for trial.8 Ricci,

19

557 U.S. at 586.

20

21
22
23
24

25
26
8

27

28

The defense will not be required to respond to Plaintiffs
affirmative motion for summary judgment (Docket # 68) until further order of
the Court. It’s likely moot should the recommendations above be accepted.
12

Case 8:17-cv-00488-VBF-MRW Document 72 Filed 07/27/18 Page 13 of 13 PagelD#:947

1
2

CONCLUSION
IT IS THEREFORE RECOMMENDED that the District Judge issue an

3

order: (1) accepting the findings and recommendations in this Report;

4

(2) granting the defense motion for summary judgment; and (3) dismissing the

5

action with prejudice.

6
7

8

Dated: July 27, 2018
HON. MICHAEL R. WILNER
UNITED STATES MAGISTRATE JUDGE

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
13

Additional material
from this filing is
available in the
Clerk's Office.

